No. __-____

In the Supreme Court of the United States
DAX CARPENTER,
v.

Petitioner,

JULIE ELIZABETH CARPENTER,
Respondent.
CERTIFICATE OF SERVICE OF PETITION
OF

WRIT OF CERTIORARI

CARSON J. TUCKER, JD, MSEL, Counsel of Record
LEX FORI, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
Phone: +17348879261
Fax: +17348879255
cjtucker@lexfori.org

CERTIFICATE OF SERVICE OF PETITION
FOR WRIT OF CERTIORARI
Pursuant to Supreme Court Rules and further
Orders of the Court dated April 15, 2020 undersigned
sent on the below date by first class mail and/or by
email if electronic service was consented to a copy of
Petitioner’s Petition for Writ of Certiorari to the
Supreme Court of Michigan in the above-captioned
case to counsel as follows:
ATTORNEYS FOR RESPONDENT
LAWRENCE J. EMERY (P23263)
LAWRENCE J. EMERY, P.C.
924 CENTENNIAL WAY, SUITE 470
LANSING, MI 48917
(517) 337-4866
ljemery@prodigy.net
Respectfully submitted,
Carson J. Tucker
Lex Fori, PLLC
Attorney for Petitioner
(734) 887-9261
Dated: April 22, 2021

